BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 unbound
copy and 40 copies of the foregoing Brief of Utah,
Arizona, Arkansas, Florida, Hawaii, Kansas,
Louisiana, Minnesota, Mississippi, Nebraska, North
Dakota, South Carolina, and South Dakota as Amici
Curiae in Support of Respondent in 20-637, Darrell
Hemphill v. State of New York, were sent via Next Day
Service to the U.S. Supreme Court, and 3 copies were
sent via Next Day and e-mail service to the following
parties listed below, this 17th day of August, 2021:
Jeffrey L. Fisher
Stanford Law School Supreme Court Clinic
559 Nathan Abbott Way
Stanford, CA 94305
(650) 724-7081
jlfisher@law.stanford.edu
Counsel for Petitioner
Gina Mignola
Noah Jeffrey Chamoy
Bronx County District Attorney's Office
198 East 161st Street
Bronx, NY 10451
(718) 838-7199
mignolag@bronxda.nyc.gov
chamoyn@bronxda.nyc.gov
Counsel for Respondent

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Sean D. Reyes
Utah Attorney General
Thomas B. Brunker
Deputy Solicitor General, Criminal Appeals
Christopher D. Ballard
Deputy Director, Criminal Appeals
Melissa Holyoak
Utah Solicitor General
Counsel of Record
350 N. State Street, Suite 230
P.O. Box 142320
Salt Lake City, UT 84114-2320
(801) 538-9600
melissaholyoak@agutah.gov

Counsel for Amici Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on August 17, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

Ut-l~

!l-1 cJD;J(

<M6.~

[seal]

